                                       SOCIAL SECURITY
MEMORANDUM

Date:      June 27, 2007                                                         Refer To:

To:        Laurie Watkins
           Regional Commissioner
             Philadelphia

From:      Inspector General

Subject:    Administrative Costs Claimed by the West Virginia Disability Determination Services
           (A-13-06-16121)


           The attached final report presents the results of our audit. Our objectives were to
           (1) evaluate the West Virginia Disability Determination Services’ internal controls over
           the accounting and reporting of administrative costs; (2) determine whether costs
           claimed by the West Virginia Disability Determination Services were allowable and
           funds were properly drawn; and (3) assess, on a limited basis, the general security
           controls environment.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                               Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   ADMINISTRATIVE COSTS CLAIMED
   BY THE WEST VIRGINIA DISABILITY
       DETERMINATION SERVICES

    June 2007      A-13-06-16121




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               Executive Summary
OBJECTIVE
The objectives of our audit were to (1) evaluate the West Virginia Disability
Determination Services’ (WV-DDS) internal controls over the accounting and reporting
of administrative costs; (2) determine whether costs claimed by the WV-DDS were
allowable and funds were properly drawn; and (3) assess, on a limited basis, the
general security controls environment. Our audit included the administrative costs
claimed by the WV-DDS during Fiscal Years (FY) 2004 and 2005. In addition to
reviewing the drawdowns for FYs 2004 and 2005, we reviewed the drawdowns for the
period October 1, 2000 through September 30, 2003 (FYs 2001 through 2003).

BACKGROUND
Disability Determination Services (DDS) in each State or other responsible jurisdiction
perform disability determinations under both the Disability Insurance and Supplemental
Security Income programs. Such determinations are performed in accordance with
Federal law and underlying regulations. In carrying out its obligation, each DDS is
responsible for determining claimants' disabilities and ensuring adequate evidence is
available to support its determinations. The Social Security Administration (SSA)
reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. SSA provided WV-DDS about $38 million for FYs 2004 and
2005.

RESULTS OF REVIEW
Generally, costs claimed by the WV-DDS were allowable and properly allocated.
However, we found the State’s cash draws exceeded its total claimed disbursements by
approximately $3.1 million (about 3.5 percent) for FYs 2001 through 2005. Further, the
State of West Virginia did not accurately calculate and pay interest on the draw down of
FYs 2001 and 2002 SSA funds that exceeded WV-DDS expenditures. We found the
WV-DDS reported about $1.0 million in unliquidated obligations for FYs 2004 and 2005
that were not supported (about 2.6 percent of total obligations). Furthermore, we found
WV-DDS lacked support for approximately $500,000 in additional unliquidated
obligations for FY 2003, which was outside our original audit period. Finally, WV-DDS’
Form SSA-4513 reporting practices were not in compliance with SSA’s Program
Operations Manual System.

The WV-DDS’ security controls we reviewed were generally effective; however, we
found certain controls that could be improved.




Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                  i
CONCLUSION AND RECOMMENDATIONS
We make several recommendations in this report related to overdraws, unliquidated
obligations, internal controls over accounting and reporting, and compliance with SSA’s
policies related to access, environmental, and physical security controls.

SSA AND STATE AGENCY COMMENTS
SSA and WV-DRS agreed with and took actions on our recommendations. The full text
of the comments from SSA and WV-DRS are included in Appendices E and F,
respectively.




Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                 ii
                                                                      Table of Contents
                                                                                                               Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

Cash Management Can Be Improved ..................................................................... 3

    •    Cash Draws Exceeded Total Disbursements ............................................... 3

    •    Interest Not Paid on Excess Federal Funds ................................................. 5

Accounting and Reporting Practices Needed Improvement .................................... 7

    •    Unliquidated Obligations Not Supported ....................................................... 7

    •    Reporting Practices Not in Compliance with POMS ..................................... 9

General Security Controls Can Be Improved ........................................................ 10

    •    WV-DDS Did Not Adhere to SSA’s Policies for Access Controls................ 10

    •    WV-DDS Lacked Adequate Environmental Controls .................................. 10

    •    WV-DDS Lacked Adequate Physical Security Controls.............................. 11

CONCLUSIONS AND RECOMMENDATIONS ..................................................... 12
APPENDICES
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – West Virginia Disability Determination Services - Chart of Excess
            Drawdowns
APPENDIX D – West Virginia Disability Determination Services - Schedule of Costs
             Reported, Questioned, and Allowed
APPENDIX E – Social Security Administration Comments

APPENDIX F – State Agency Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments


Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)
                                                                          Introduction
OBJECTIVE
The objectives of our audit were to (1) evaluate the West Virginia Disability
Determination Services’ (WV-DDS) internal controls over the accounting and reporting
of administrative costs; (2) determine whether costs claimed by the WV-DDS were
allowable and funds were properly drawn; and (3) assess, on a limited basis, the
general security controls environment. Our audit included the administrative costs
claimed by the WV-DDS during Fiscal Years (FY) 2004 and 2005. In addition to
reviewing the drawdowns for FYs 2004 and 2005, we reviewed the drawdowns for the
period October 1, 2000 through September 30, 2003 (FYs 2001 through 2003).

BACKGROUND
The Disability Insurance (DI) program, established under Title II of the Social Security
Act, provides benefits to wage earners and their families in the event the wage earner
becomes disabled. The Supplemental Security Income (SSI) program, established
under Title XVI of the Social Security Act, provides benefits to financially needy
individuals who are aged, blind, or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by Disability Determination
Services (DDS) in each State, Puerto Rico, and the District of Columbia in accordance
with Federal regulations. 1 In carrying out its obligation, each DDS is responsible for
determining claimants’ disabilities and ensuring adequate evidence is available to
support its determinations. To assist in making proper disability determinations, each
DDS is authorized to purchase medical examinations, x-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimant’s physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the U.S. Department
of the Treasury's (Treasury) Automated Standard Application for Payments (ASAP)
system to pay for program expenditures. Funds drawn down must comply with Federal
regulations 2 and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990 (CMIA). 3



1
    20 Code of Federal Regulations (C.F.R.) §§ 404.1601 et seq. and 416.1001 et seq.
2
    31 C.F.R. § 205.1 et seq.
3
    Public Law (P.L.) No. 101-453.


Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                      1
An advance or reimbursement for costs under the program must comply with Office of
Management and Budget Circular A-87, Cost Principles for State, Local, and Indian
Tribal Governments. At the end of each quarter, each DDS submits a State Agency
Report of Obligations for SSA Disability Programs (Form SSA-4513) to account for
program disbursements and unliquidated obligations for the FY. 4 The Form SSA-4513
reports expenditures and unliquidated obligations for personnel service costs, medical
costs, indirect costs, and all other nonpersonnel costs.

For these costs, WV-DDS reported program disbursements and unliquidated obligations
to SSA on Forms SSA-4513, as shown in Table 1.

     Table 1: WV-DDS Report of Disbursements and Unliquidated Obligations
                              FYs 2004 and 2005
                         (as of September 30, 2005)

                 Reporting Item                   FY 2004                  FY 2005

           Disbursements
             Personnel                         $10,219,621             $10,585,144
             Medical                            $5,191,576              $4,237,500
             Indirect                           $1,774,173              $1,583,401
             Other                              $1,128,052               $902,501
           Total Disbursements                 $18,313,422             $17,308,546
           Unliquidated Obligations              $359,890               $2,232,429


WV-DDS is comprised of two offices in Charleston and Clarksburg, West Virginia. See
Appendix B for our Scope and Methodology.




4
  SSA, Program Operations Manual System (POMS), DI 39506.200 B.4, “Unliquidated obligations
represent obligations for which payment has not yet been made. Unpaid obligations are considered
unliquidated whether or not the goods or services have been received.”


Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                              2
                                                    Results of Review
Generally, costs claimed by the WV-DDS were allowable and properly allocated.
However, we found the State’s cash draws exceeded its total claimed disbursements by
approximately $3.1 million (about 3.5 percent) for FYs 2001 through 2005. Further, the
State of West Virginia did not accurately calculate and pay interest on the draw down of
FY 2001 and 2002 SSA funds that exceeded WV-DDS expenditures. We found the
WV-DDS reported about $1.0 million in unliquidated obligations for FYs 2004 and 2005
that were not supported (about 2.6 percent of total obligations). Although outside our
original audit period, we also found WV-DDS lacked support for approximately
$500,000 in unliquidated obligations for FY 2003. Further, WV-DDS’ Form SSA-4513
reporting practices were not in compliance with the Agency’s POMS.

The security controls we reviewed at the WV-DDS were generally effective; however,
we found certain controls that can be improved.


CASH MANAGEMENT CAN BE IMPROVED
The West Virginia Division of Rehabilitation Services (WV-DRS) did not comply with
Federal regulations for cash drawdowns. The amount of SSA funds drawn consistently
exceeded the cumulative disbursements claimed by the WV-DDS on its Form
SSA-4513. Federal regulations require that State agencies or other responsible
jurisdictions only draw down funds to meet immediate funding needs. 5 Further,
because of WV-DRS’ inaccurate reporting of cash draws and disbursements, the State
of West Virginia did not accurately calculate and pay interest on the draw down of
FY 2001 and 2002 Federal funds exceeding WV-DDS expenditures.


Cash Draws Exceeded       Our review of the ASAP reports and costs claimed on
Total Disbursements       WV-DDS’ Forms SSA-4513 showed funds were not drawn
                          down on an as-needed basis. Funds to reimburse
WV-DDS expenditures are drawn from Treasury’s ASAP system. As of June 30, 2006,
WV-DDS’ cash draws exceeded its total disbursements by $3,134,805 for FYs 2001
through 2005. Table 2 shows a comparison of the cumulative draws to the allowable
cumulative disbursements on the Forms SSA-4513.




5
    31 C.F.R. § 205.11(b).


Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                  3
                       Table 2: Cumulative Draws and Disbursements
                                  FYs 2001 Through 2005

                             ASAP             Form SSA-4513
              Fiscal      Cumulative            Cumulative               Excess
               Year       Drawdowns           Disbursements 6          Drawdowns
              2001        $17,057,222           $16,046,322            $1,010,900
              2002        $18,018,590           $17,438,641            $ 579,949
              2003        $18,497,838           $18,006,518            $ 491,320
              2004        $18,699,864           $18,333,673            $ 366,191
              2005        $19,571,845           $18,885,400            $ 686,445
              Total       $91,845,359           $88,710,554            $3,134,805

Additionally, the overdrawn funds were held for extended periods of time (see
Appendix C). For example, FY 2002 overdraws of funds began with approximately
$2.5 million as early as December 2001 and reached as much as approximately
$6.4 million in June 2002 before gradually decreasing to approximately $0.6 million in
September 2004. Table 3 shows the highest value of overdrawn funds.

                    Table 3: Highest Value of Excess Cumulative Draws
                                  FYs 2001 Through 2005
                                    (dollars in millions)

                                      FY           Amount
                                     2001           $3.7
                                     2002           $6.4
                                     2003           $2.4
                                     2004           $4.3
                                     2005           $2.8

We informed WV-DRS and DDS officials of the overdraws and inquired about what
caused the overdraws. A WV-DRS official stated “…it is my impression that there are
three circumstances that led to the excess draws: 1) draws based on estimates,
2) problems with indirect cost entries, 3) misunderstanding as to the use of SSA funds.”

On February 16, 2006, the SSA Philadelphia Regional Office and WV-DRS agreed
WV-DRS would not draw $1,590,849 7 from the ASAP account for its FY 2006 indirect
costs instead of refunding the overdraws for FYs 2001 and 2002. However, the SSA
Office of Finance subsequently determined the agreement was “inadequate and
improper.”


6
 FYs 2001 and 2002 have been closed. Therefore, the most current Forms SSA-4513 available for
FYs 2001 and 2002 were for the periods ending October 29, 2004 and September 30, 2004, respectively.
For FYs 2003 through 2005, the information is as of June 30, 2006.
7
    The excess cash draws for FYs 2001 and 2002.

Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                              4
As of November 2006, no agreement had been reached for FYs 2003 through 2005.
We believe WV-DDS should refund $3,134,805 for FYs 2001 through 2005 excess
drawdowns (about 3.5 percent of the total disbursements). Additionally, SSA should
review WV-DDS’ FY 2006 drawdowns and disbursements to determine whether
WV-DDS continued to draw funds in excess of its expenditures.

SSA staff informed us the Agency does not have policies and procedures for the
collection of DDS excess draws. Such policies and procedures need to ensure
compliance with applicable Federal appropriations law, regulations, and DDS
accounting and reporting requirements.


                         The State of West Virginia did not accurately calculate and
Interest Not Paid on
                         pay interest on the overdraw of FY 2001 and 2002 Federal
Excess Federal Funds
                         funds exceeding WV-DDS expenditures, as required. We
                         determined that about $7.9 million in excess draws during
FYs 2001 and 2002 were not included in the interest calculations because of inaccurate
reporting by WV-DRS.

The CMIA agreement 8 between the State of West Virginia and Treasury indicates,
under certain conditions, the State will calculate and pay interest on Federal funds.
These conditions are (1) a program is classified as a major Federal assistance program,
which occurs when certain dollar thresholds are exceeded and (2) State draw down of
Federal funds exceeded program expenditures. See Table 4 for comparison of award
amount to major Federal assistance program thresholds.

                   Table 4: Major Federal Assistance Program Thresholds
                                   FY 2001 Through 2005
                                     (dollars in millions)

                                   Major Federal                    WV-DDS is a Major Federal
                                Assistance Program                   Assistance Program?
           Federal FY                Threshold       Award Amount          (Yes/No)
             2001                       $7.0             $16.0                Yes
             2002                       $7.0             $16.5                Yes
             2003                      $18.4             $17.1                 No
             2004                      $20.2             $18.3                 No
             2005                      $21.2             $16.5                 No

Since WV-DDS met the criteria as a major Federal assistance program in FYs 2001 and
2002, excess drawdowns were subject to the CMIA interest calculation. 9 WV-DRS had
drawn Federal funds in excess of WV-DDS’ FY 2001 and 2002 expenditures. The State


8
 Cash Management Improvement Act Agreement between the State of West Virginia and the Secretary
of the Treasury, U.S. Department of the Treasury, Sections 5.0, 10.0, 11.0, and 16.0.
9
    31 C.F.R. § 205.1 et seq.

Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                             5
of West Virginia had paid an interest liability totaling $31,543 for FY 2001 and $9,188 for
FY 2002 because of excess drawdowns. 10

Our review of the FYs 2001 and 2002 interest calculations found that WV-DRS did not
accurately report cash draws and disbursements to the West Virginia State Treasurer’s
Office for the period October 1, 2000 through June 30, 2002. 11 We found WV-DRS
underreported drawdowns and overreported disbursements for FY 2001. Further, the
FY 2002 drawdowns and disbursements were overreported. As a result, $1,639,298
and $6,249,381, for FYs 2001 and 2002, respectively, in excess draws were not
included in the West Virginia State Treasurer’s Office’s calculation of interest. See
Table 5.


       Table 5: Effect on Interest Calculations Caused by Inaccurate Reporting of
                                    FY 2001 and 2002
                             Drawdowns and Disbursements

                                                                                           Amount Not
 Fiscal                                   ASAP Reports            Reported to West         Included in
  Year                                        and                   Virginia State         the Interest
                         Item
                                         Forms SSA-4513           Treasurer's Office       Calculation
            Cumulative
            Drawdowns                $         11,745,222     $           10,835,932
     2001   Cumulative
            Disbursements            $           9,231,416    $            9,961,424

            Difference               $           2,513,806    $              874,508   $      1,639,298

            Cumulative
            Drawdowns                $         18,113,980     $           18,909,206
     2002   Cumulative
            Disbursements            $         11,172,519     $           18,217,126

            Difference               $           6,941,461    $              692,080   $      6,249,381
 Total                                                                                 $      7,888,679

We informed West Virginia State Treasury officials of the inaccurate reporting of
drawdowns and inquired about possible reasons for the discrepancy. State Treasury
officials informed us that, on at least six occasions, some of the FY 2001 drawdown
amount was applied to two of WV-DRS’ reporting programs—WV-DDS and Vocational
Rehabilitation. WV-DRS officials did not provide information pertaining to the causes for
the FY 2001 and 2002 reporting errors.


10
  WV-DRS did not submit reports to the State Treasurer’s Office for drawdowns and disbursements for
FYs 2003 through 2005 because WV-DDS was not designated a major program.
11
  The calculation of interest is performed on a State FY basis; therefore, October 2000 through
June 2002 was the only time during our audit period subject to interest calculations.

Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                                     6
Although the West Virginia State Treasurer’s Office did not accurately calculate and pay
interest on the FY 2001 and 2002 excess drawdowns, an U.S. Treasury official stated
the FY 2001 and 2002 Annual Reports submitted by the West Virginia State Treasurer’s
Office cannot be modified. Federal regulations state “Adjustments to the Annual Report
must be limited to the two State fiscal years prior to the State fiscal year covered by the
report.” 12 As a result, changes cannot be made to the reports for re-calculating the
interest liability on excess drawdowns.

Since WV-DRS continued to draw down funds in excess of its expenditures for FYs
2003 through 2005, SSA should consider requesting that Treasury change the
WV-DDS’ program status to make it subject to interest for any subsequent overdraws.
According to Federal regulations, 13 Treasury may require that a State and Federal
Program Agency make the affected Federal assistance programs subject to interest if a
State demonstrates an unwillingness or inability to comply with procedures for efficient
Federal-State fund transfers.


ACCOUNTING AND REPORTING PRACTICES NEEDED
IMPROVEMENT
We determined WV-DRS’ practice of reporting unliquidated obligations caused
WV-DDS to misstate its Forms SSA-4513. WV-DDS claimed unliquidated obligations
on the FYs 2003 through 2005 Forms SSA-4513 that were not supported. Additionally,
WV-DRS’ reporting practices did not comply with POMS. WV-DRS and WV-DDS did
not have internal controls in place to prevent or detect reporting inconsistencies.

                             WV-DDS reported unliquidated obligations totaling
Unliquidated Obligations
                             $2,592,319 that were not supported on its FYs 2004 and
Not Supported                2005 Forms SSA-4513, as of September 30, 2005. SSA’s
                             POMS states “Obligations for supplies, equipment, and
other contractual services…should be supported by a valid purchase order or other
binding agreement to pay for goods or services.” 14 For an obligation to be valid, POMS
requires that a bona fide need exist in the FY the funds were available for creating an
obligation. 15 A purchase order or other binding agreement can be issued up to
6 months after the end of the FY. 16 At least once each month, the DDSs are required to
review unliquidated obligations and cancel those amounts that are no longer valid. 17

12
     31 C.F.R. § 205.26 (a).
13
     31 C.F.R. §§ 205.33 and 205.35.
14
     SSA, POMS, DI 39506.201, E.4.
15
     SSA, POMS, DI 39506.200, B.1.
16
     Id.
17
     SSA, POMS, DI 39506.203, A.

Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                     7
WV-DDS could not provide purchase orders or other binding agreements that had been
issued for the FY 2004 and 2005 unliquidated obligations. Additionally, during our audit,
it came to our attention that the same process was used to determine unliquidated
obligations for FYs 2003 through 2005. Therefore, we expanded our review to include
unliquidated obligations reported for FY 2003. As a result, we found WV-DDS did not
have documentation to support $508,147 in unliquidated obligations reported on its
FY 2003 Form SSA-4513, as of September 30, 2005.

For the approximately $2.6 million in FY 2004 and 2005 unliquidated obligations,
WV-DRS provided accounting records in July 2006 for disbursements dated
October 1, 2005 through June 30, 2006. WV-DRS provided additional records in
October 2006. The disbursements totaled $20,251 and $1,576,854 for FYs 2004 and
2005, respectively. As a result, WV-DDS’ unliquidated obligations were reduced to
$995,214 for FYs 2004 and 2005 (about 2.6 percent of total obligations). No further
records were provided to support these remaining unliquidated obligations. In addition,
WV-DRS did not provide additional documentation to support FY 2003 disbursements
after September 30, 2005.

Table 6 summarizes the unliquidated obligations without support we identified for
FYs 2003 through 2005, as of September 30, 2005.

                    Table 6: Unliquidated Obligations Not Supported
                                 FYs 2003 Through 2005
                               (as of September 30, 2005)

          Form SSA-4513
           Cost Category             FY 2003       FY 2004        FY 2005           Total
     Personnel                           $710        $3,594      ($6,222) 18          ($1,918)
     Medical                         $339,662      $259,914       $385,386          $984,962
     Indirect                              $0            $0        $19,512            $19,512
     All Other Nonpersonnel          $167,775       $76,131       $256,899          $500,805
     Total                           $508,147      $339,639       $655,575         $1,503,361

SSA’s Philadelphia Regional Office should withdraw the funding for the $1,503,361
erroneously reported as unliquidated obligations until WV-DDS can provide support for
the obligations. Further, WV-DDS should perform monthly reviews of its unliquidated
obligations to ensure their validity and place sufficient internal controls over its
accounting and reporting operations to ensure the accuracy of the Forms SSA-4513.




18
  Because of WV-DDS’ inaccurate reporting, these unliquidated obligations are shown as a negative
number on the Form SSA-4513.

Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                               8
Reporting Practices Not     WV-DRS did not comply with POMS procedures for
in Compliance with          reporting obligations. WV-DRS only recorded those
POMS                        transactions that impacted cash for budgetary reporting
                            and did not have the data necessary to report obligations
accurately. As a result, WV-DRS used data from outside its accounting system to
prepare the Forms SSA-4513. The outside data proved to be unreliable.

POMS 19 provides specific detailed instructions for DDSs to summarize various
categories of costs as well as report whether these costs have been
disbursed/liquidated or are unliquidated. POMS 20 describes obligations as to their
definition, what supports their validity and when they are to be reported. SSA requires
reporting of this information in appropriate columns on the Form SSA-4513.
Specifically, POMS 21 requires the disbursements column to reflect the cumulative
disbursements through the ending date of the reporting period for each category listed.
The unliquidated obligations column represents the total amount of all unliquidated
obligations as of the ending date of the reporting period for each category listed. The
total obligations column reflects the sum of disbursements and unliquidated obligations
as of the ending date of the reporting period for each category listed.

On August 16, 2006, we asked WV-DRS the basis for the amounts reported as
unliquidated obligations on the Forms SSA-4513. WV-DRS and DDS officials stated a
process did not exist for reporting unliquidated obligations. Additionally, WV-DRS
officials explained the WV-DDS’ Monthly Obligation Report was used to derive the total
obligations. WV-DDS officials stated the Monthly Obligation Report (1) contains
estimates and (2) is not always adjusted for actual obligations. Further, WV-DRS
officials explained the Forms SSA-4513 unliquidated obligations were derived by
subtracting the disbursements from the total obligations.

We informed WV-DRS and WV-DDS officials the method used to report obligations was
not in compliance with SSA’s procedures. Financial management controls were not in
place to detect reporting inconsistencies while summarizing the various categories of
cost on the Forms SSA-4513.

The Form SSA-4513 may be an effective tool for States to monitor22 the quarterly
cumulative rate of expenditures and control this rate all year. Additionally, the Form
SSA-4513 is used to safeguard against over-expenditure of DDS budgets for disability
program operations. Because WV-DRS used an inappropriate practice, the Forms
SSA-4513 were misstated. Additionally, WV-DRS and WV-DDS were unable to
reconcile the costs claimed on the Forms SSA-4513 to their accounting records.
Without such reconciliations, misstatements can go undetected. WV-DRS needs
19
     SSA, POMS, DI 39506.210 C.
20
     SSA, POMS, DI 39506.200 B and DI 39506.201.
21
     SSA, POMS, DI 39506.210 C.
22
     SSA, POMS, DI 39506.100.

Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                     9
sufficient internal controls over its accounting and reporting to ensure the accuracy of
the Forms SSA-4513 to ensure SSA does not under- or over-fund WV-DDS’ operations.

GENERAL SECURITY CONTROLS CAN BE IMPROVED
Based on our limited assessment of WV-DDS’ general security controls environment,
we determined WV-DDS’ controls were generally effective. However, we identified
three areas where WV-DDS could improve its general controls. WV-DDS did not
adhere to SSA’s policies for access controls and lacked adequate environmental and
physical security controls.

                             WV-DDS did not comply with SSA’s policies for access
WV-DDS Did Not Adhere
                             controls. We found unauthorized individuals (contractor
to SSA Policies for
                             employees) had access to WV-DDS offices and the
Access Controls
                             printer-server 23 room in Charleston, West Virginia. The
individuals’ access included nonwork hours without WV-DDS employees present. SSA
POMS 24 requires that access to computer rooms be restricted. The unauthorized
access placed sensitive SSA equipment and data at-risk. We discussed this
unauthorized access with WV-DDS officials, who believed the access was needed for
the contract employees to perform their work.

On November 9, 2006, we discussed the access controls with representatives from
SSA’s Philadelphia Regional Office, WV-DRS and WV-DDS. The WV-DDS official
stated the contractor employees had access to the WV-DDS offices and printer-server
room; however, the contractor employees did not have access to the automatic data
processing room. Additionally, WV-DDS stated that these contractor employees have
performed cleaning services during the day since July 2006.

WV-DDS Lacked                WV-DDS did not comply with SSA’s policies for
Adequate Environmental environmental controls. We found the computer room at
Controls                     the WV-DDS did not have a water detection alarm.
                             POMS 25 states the computer room should have a properly
installed alarm for environmental controls that addresses such issues as water,
temperature, etc. The lack of a water detection alarm increases the risk that sensitive
information and equipment could be damaged or destroyed. WV-DDS officials agreed
the computer room lacked these environmental controls.




23
  A printer-server is a device set up on a network to route print requests and status information between
computers and printers connected by a network.
24
     SSA, POMS, DI 39566.010, B.2.l.
25
     SSA, POMS, DI 39566.010, B.2.m.

Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                                   10
                                  The WV-DDS’ physical security controls did not meet
WV-DDS Lacked
                                  requirements. We found the WV-DDS computer room was
Adequate Physical
                                  not constructed to prevent unauthorized access and did not
Security Controls
                                  have compensating controls.

According to POMS, 26 the walls of the computer room should have slab-to-slab
construction to prevent unauthorized entry or the computer room must be made secure
by installing chain link fences, heavy wire mesh, or motion sensor devices in the space
between the false ceiling and the true ceiling of the facility. The lack of adequate
physical security controls places sensitive SSA equipment and data at-risk.

PricewaterhouseCoopers also identified this finding in its FY 2005 security audit of the
WV-DDS. In response, WV-DDS stated it would work with SSA to consider options and
funding to address this concern and seek a resolution that would satisfy the guidelines
in POMS. The target for completion was July 31, 2006. However, as of August 2006,
we found that WV-DDS had not implemented the necessary improvements to its
physical security controls.




26
     SSA, POMS, DI 39566.010, B.2.l.

Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                     11
                                                   Conclusions and
                                                  Recommendations
Except for certain obligations, we found costs claimed by the WV-DDS were generally
allowable and properly allocated. However, WV-DDS’s cash management, accounting
and reporting practices can be improved. FY 2001 through 2005 drawdowns of SSA
funds were about 3.5 percent higher than cash disbursements, and interest on the
FY 2001 and 2002 funds that exceeded expenditures was not calculated correctly.
WV-DDS could not provide support for about 2.6 percent of total FY 2004 and 2005
obligations. In addition, approximately $500,000 in FY 2003 obligations were not
supported. Further, although we identified opportunities to improve the general controls
environment, we do not believe these conditions rise to the level of significantly
impacting the controls environment. As a result, we recommend SSA:


RECOMMENDATIONS
1. Instruct the WV-DDS to refund $1,010,900, $579,949, $491,320, $366,191, and
   $686,445 for FYs 2001 through 2005, respectively, for cash draws exceeding
   disbursements.

2. Review WV-DDS’ FY 2006 drawdowns and disbursements to determine whether
   WV-DDS continued to draw funds in excess of its expenditures.

3. Determine whether to request Treasury to change the WV-DDS’ program status to
   make it subject to interest for overdraws.

4. Require the WV-DDS to provide supporting documentation or withdraw funding
   authority of $508,147, $339,639, and $655,575 for FYs 2003 through 2005,
   respectively, for the unsupported obligations.

5. Require that WV-DDS follow POMS instructions for financial reporting of
   unliquidated obligations on the Form SSA-4513.

6. Instruct WV-DDS to improve internal controls over its accounting and reporting
   operations to ensure the accuracy of the Forms SSA-4513.

7. Instruct the WV-DDS to comply with SSA’s policies related to access, environmental
   and physical security controls.




Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                 12
We also recommend that the Philadelphia Regional Office:

8. Work with SSA Headquarters components to establish policies and procedures for
   the collection of DDS excess drawdowns in accordance with applicable Federal
   appropriations law, regulations, and accounting and reporting requirements.

SSA AND STATE AGENCY COMMENTS
SSA and WV-DRS agreed with and took actions on our recommendations. The full text
of the comments from SSA and WV-DRS are included in Appendices E and F,
respectively.




Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)               13
                                           Appendices




Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)
                                                                        Appendix A

Acronyms

 ASAP                 Automated Standard Application for Payments

 C.F.R.               Code of Federal Regulations

 CMIA                 Cash Management Improvement Act of 1990

 DDS                  Disability Determination Services

 DI                   Disability Insurance

 FY                   Fiscal Year

 Form SSA-4513        State Agency Report of Obligations for SSA Disability
                      Programs
 POMS                 Program Operations Manual System

 P.L.                 Public Law

 SSA                  Social Security Administration

 SSI                  Supplemental Security Income

 Treasury             Department of the Treasury

 WV-DDS               West Virginia Disability Determination Services

 WV-DRS               West Virginia Division of Rehabilitation Services




Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)
                                                                         Appendix B

Scope and Methodology
SCOPE

To achieve our objectives, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System and other
    criteria relevant to administrative costs claimed by the West Virginia Disability
    Determination Services (WV-DDS) and the draw down of SSA program funds.

•   Interviewed staff and officials from the West Virginia Division of Rehabilitation
    Services (WV-DRS), WV-DDS, and SSA’s Philadelphia Regional Office.

•   Reviewed the State of West Virginia Statewide Single Audit reports for years ended
    June 30, 2004 and 2005.

•   Reviewed State of West Virginia policies and procedures related to personnel,
    medical services, and all other nonpersonnel costs.

•   Evaluated and tested internal controls regarding accounting, financial reporting and
    cash management activities.

•   Reconciled the WV-DRS’ accounting records to the administrative costs reported by
    the WV-DDS on the State Agency Report of Obligations for SSA Disability Programs
    (Form SSA-4513) for Fiscal Years (FY) 2004 and 2005.

•   Reviewed the administrative costs WV-DDS reported on its Forms SSA-4513 for
    FYs 2004 and 2005. However, our finding related to unliquidated obligations
    affected the costs claimed in FY 2003. Therefore, to fully develop this finding, we
    expanded the audit period to include the unliquidated obligations WV-DDS reported
    on its Forms SSA-4513 for FY 2003.

•   Examined specific administrative expenditures (personnel, medical services, and all
    other nonpersonnel costs) incurred and claimed by the WV-DDS for FYs 2004 and
    2005 on the Forms SSA-4513. We used statistical sampling to select expenditures
    to test personnel costs, medical services, and all other nonpersonnel costs.

•   Examined indirect costs claimed by the WV-DDS for FYs 2004 and 2005.

•   Compared the amount of SSA funds drawn for support of program operations to the
    expenditures reported on the Forms SSA-4513 for FYs 2001 through 2005.



Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                   B-1
•   Reviewed, on a limited basis, WV-DDS’ general physical security controls related to
    physical security and continuity of operations at their office located in
    Charleston, West Virginia.

We determined that the data provided by WV-DDS and WV-DRS used in our audit were
sufficiently reliable to achieve our audit objectives. We assessed the reliability of the
data by reconciling them to the costs claimed on the Form SSA-4513. We also
conducted detailed audit testing on selected data elements in the electronic data files.

We performed our audit at the WV-DDS and WV-DRS in Charleston, West Virginia, and
the Office of Audit in Baltimore, Maryland. We conducted fieldwork from June through
October 2006. Our audit was conducted in accordance with generally accepted
government auditing standards.

METHODOLOGY

The sampling methodology encompassed three general areas of costs as reported on
the Form SSA-4513: (1) personnel, (2) medical, and (3) all other nonpersonnel costs.
For indirect costs, we reviewed the indirect cost calculations for FYs 2004 through 2005
to ensure the correct rate was applied. We obtained electronic records and paper
accounting reports that supported the personnel, medical, and all other nonpersonnel
costs for FYs 2004 and 2005 for use in sampling. These records were obtained from
the accounting systems and accounting reports used by the State of West Virginia and
the WV-DDS for the preparation of the Form SSA-4513.

Personnel Costs

We randomly selected 1 pay period in FY 2005 and reviewed 50 personnel
transactions. We tested WV-DDS payroll records to ensure it correctly paid employees
and adequately documented these payments.

For medical consultant costs, we randomly selected one pay period in FY 2005. We
selected all medical consultants during that period and verified that the medical
consultants were paid in accordance with the approved contract.

Medical Costs

We sampled 100 items (50 items from each FY) using a stratified random sample of
medical costs based on the proportion of medical evidence of record and consultative
examination costs to total medical costs claimed.

All Other Nonpersonnel Costs

We selected a stratified random sample of 100 items (50 items from each FY) from the
All Other Non-personnel Costs category. Before selecting the sample items, we
stratified the transactions into the appropriate categories: (1) Occupancy, (2) Contracted



Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)              B-2
Costs, (3) Electronic Data Processing Maintenance, (4) New Electronic Data Processing
Equipment, (5) Equipment Purchases, (6) Equipment Rental, (7) Applicant Travel,
(8) WV-DDS Travel, (9) Supplies, and (10) Miscellaneous. We then distributed the
50 sample items for each year between categories based on the proportional
distribution of the costs.

Due to incomplete data for postal and telephone items, the Communications category
was sampled separately. We selected 53 items based on high dollar value. We then
randomly selected an additional 20 items from each FY. In total, we selected a sample
of 93 items from the Communications category (48 items from FY 2004 and 45 items
from FY 2005).




Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)          B-3
                                                                              Appendix C

West Virginia Disability Determination
Services - Chart of Excess Drawdowns1
                                      FYs 2001 Through 2005
                 $7
                 $6
                 $5
    $ Millions




                 $4
                 $3
                 $2
                 $1
                 $-
                 M 0




                 M 1




                 M 2




                 M 3




                 M 4




                       05
                 Ju 1




                 Ju 2




                 Ju 3




                 Ju 4




                 Ju 5
                 De 1




                 De 2




                 De 3




                 De 4




                 De 5
                 Se 1




                 Se 2




                 Se 3




                 Se 4




                 Se 5
                     -0




                     -0




                     -0




                     -0




                     -0
                       0




                       0




                       0




                       0




                       0
                      0




                      0




                      0




                      0




                      0
                      0




                      0




                      0




                      0




                      0
                    c-




                    c-




                    c-




                    c-




                    c-




                    c-
                   n-




                   n-




                   n-




                   n-




                   n-
                   p-




                   p-




                   p-




                   p-




                   p-
                  ar




                  ar




                  ar




                  ar




                  ar
                 De




                            FY 2001     FY 2002     FY 2003    FY 2004     FY 2005


Note: For FY 2003, data not available for September 2004. SSA was unable to locate the FY 2003 Form
SSA-4513 for the quarter ending September 30, 2004.




1
 Each point represents cumulative quarterly totals. Amounts shown are the balance of drawdowns
exceeding the claimed disbursements.


Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)
                                                                        Appendix D

West Virginia Disability Determination
Services - Schedule of Costs Reported,
Questioned, and Allowed

Our audit work resulted in the identification of one area of questioned costs. We
identified unsupported obligations totaling $995,214. This total comprises $339,639 and
$655,575 for Fiscal Years (FY) 2004 and 2005, respectively.

                                    FY 2004 Costs
                              as of September 30, 2005
Description               Costs Reported Costs Questioned               Costs Allowed
Personnel                     $10,222,914              $3,594               $10,219,320
Medical                        $5,454,092            $259,914                 $5,194,178
Indirect                       $1,774,173                  $0                 $1,774,173
All Other                      $1,222,133             $76,131                 $1,146,002
Total                         $18,673,312            $339,639               $18,333,673


                                    FY 2005 Costs
                              as of September 30, 2005
Description               Costs Reported Costs Questioned               Costs Allowed
Personnel                     $10,779,948             ($6,222)              $10,786,170
Medical                        $5,249,384            $385,386                 $4,863,998
Indirect                       $2,155,066             $19,512                 $2,135,554
All Other                      $1,356,577            $256,899                 $1,099,678
Total                         $19,540,975            $655,575               $18,885,400

Additionally, we are questioning the total amount of unliquidated obligations of $508,147
for FY 2003.




Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)
                                                                        Appendix E

Social Security Administration Comments

June 5, 2007

Signed Draft Report (A-13-06-16121)—Philadelphia Response

Thank you for the opportunity to respond to the recommendations provided in the draft
report on Administrative Costs Claimed by the West Virginia Disability Determination
Services (A-13-06-16121) for fiscal years 2004 and 2005. In addition to administrative
costs for FYs 2004 and 2005, the review also included an assessment of West Virginia's
cash draw downs for FYs 2001 through 2003. Status of the eight (8) recommendations
contained in the report are shown below. The information shown incorporates the WV
DDS response to the draft report.

Recommendation #1:
Instruct the WV DDS to refund $1,010,900, $579,949, $491,320, $366,191, and
$686,445 for FYs 2001 through 2005, respectively, for cash draws exceeding
disbursements.

Response:
To date, the WV DDS has reimbursed all cash draws exceeding disbursements for FYs
2001 through 2004.

For FY 2005, adjustments were made to the cash draw balances resulting in an
outstanding repayment balance of $540,114. The DDS will reimburse $300,000 of the
total outstanding repayment balance by June 18, 2007. The remaining balance will be
reimbursed by July 15, 2007. SSA will follow up on this action item.

Recommendation #2:
Review WV DDS’ FY 2006 draw downs and disbursements to determine whether WV
DDS continued to draw funds in excess of its expenditures.

Response:
We have reviewed the DDS’s FY 2006 draw downs and disbursements and found that
the DDS did not draw funds in excess of its expenditures. In addition, WV DDS has
provided in their response a copy of the Department of Treasury’s Automated Standard
Application for Payment (ASAP) report which shows periodic disbursements throughout
the fiscal year which validates our review.

The WV DDS has implemented procedures requiring reconciliation between ASAP
disbursements and the SSA-4513 report to eliminate cash draws in excess of its
expenditures. This finding is resolved.

Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)              E-1
Recommendation #3
Determine whether to request Treasury to change the WV DDS’ program status to
make it subject to interest for overdraws.

Response:
We have researched this issue and do not wish to pursue a change in the WV DDS’
program status. The WV DDS has demonstrated a willingness to comply with
procedures and has implemented new procedures to prevent overdraws in the future.
This finding is resolved.

Recommendation #4
Require the WV DDS to provide supporting documentation or withdraw funding authority
of $508,147, $339,639, and $655,575 for FYs 2003 through 2005, respectively, for the
unsupported obligations.

Response:
We verified that all obligations were valid when initiated. The DDS has submitted the
required fiscal reports (SSA-4513) for FYs 2003 and 2004 removing the amounts in
question. We have reduced the funding authority for both FYs 2003 and 2004 for the
questioned costs.

For FY 2005, we have reduced the DDSs’ funding authority by $375,000 for
unliquidated obligations that should have been removed. The DDS is in the process of
evaluating their remaining unliquidated obligations and will complete their evaluation by
July 30, 2007. Upon completion of the DDSs’ evaluation and submission of required
fiscal reports (SSA-4513), we will further reduce the funding authority for FY 2005. SSA
will follow up on this action item.

Recommendation #5
Require that WV DDS follow POMS instructions for financial reporting of unliquidated
obligations on the Form SSA-4513.

Response:
Training focused on the POMS requirements for financial reporting of unliquidated
obligations was provided to DRS and DDS staff in February 2007. In addition, the WV
DDS is revamping their reporting procedures to comply with POMS requirements. This
finding is resolved.

Recommendation #6
Instruct WV DDS to improve internal controls over its accounting and reporting
operations to ensure the accuracy of the Forms SSA-4513.

Response:
Instruction occurred in February and April 2007 on how to improve internal controls over
its accounting and reporting operations to ensure the accuracy of the form SSA-4513.
The WV DDS has established a separate account with WV Treasury for the accounting


Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                E-2
and reporting of DDS funds and has implemented a new procedure for documenting
draw downs. This finding is resolved.

Recommendation #7
Instruct the WV DDS to comply with SSA’s policies related to access, environmental
and physical security controls.

Response:
• Access Controls
  The WV DDS has taken the necessary steps to comply with SSA’s policies relating
  to access control. The DDS performed a systems access review in April 2007 and
  submitted a corrective action plan documenting the steps taken to be compliant with
  SSA’s policies. This finding is resolved.

•   Environmental Controls
    Attached is WV’s risk assessment plan which specifically addresses, on page 4 and
    5, the environmental controls for temperature and water detection. The plan showed
    that reasonable measures are in place to maintain and monitor for temperature and
    water damages. This finding is resolved.

•   Physical Security Controls
    The WV DDS is in the process of obtaining an estimate for the installation of an
    intrusion detection system (IDS) so that physical security controls meet POMS
    requirements. SSA will follow up on this action item.

Recommendation #8
Work with SSA Headquarters components to establish policies and procedures for the
collection of DDS excess draw downs in accordance with applicable Federal
appropriations law, regulations, and accounting and reporting requirements.

Response:
We have initiated discussions with SSA Headquarters staff to establish policies and
procedures for the collection of DDS excess draw downs. This finding is resolved.

Should you have any questions regarding this response, please contact Betty Martin at
215-597-2047 in the Philadelphia Region Center for Disability Programs.




Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                  E-3
                                                                        Appendix F

State Agency Comments




Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)
Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)   F-1
     Administrative Costs Claimed by the West Virginia Disability Determination Services
                                Draft DDS Audit Response
                                       May 16, 2007


The West Virginia Disability Determination Services (DDS) has had the opportunity to review
OIG’s draft report, Administrative Costs Claimed by the West Virginia Disability Determination
Services. The audit presented eight recommendations related to cash management controls and
general security controls. The West Virginia DDS respectfully submits the following comments
in response to the recommendations:

Recommendation #1:

Instruct the WV DDS to refund $1,010,900, $579,949, $491,320, $366,191, and $686,445 for
FYs 2001 through 2005, respectively, for cash draws exceeding disbursements.

Response:

              WV DDS has refunded $513,540, $26,552, and $30,868 for FY’s 2003 through
              2005. A check for $1,590,849 to refund Fiscal Years 2001 and 2002 was received
              by SSA on May 15, 2007. FY 2003 was open at the time of the audit and
              additional medical costs were paid by WV DRS. The payment by WV DDS of
              $513,540 for FY 2003 exceeded the recommendation of the auditors. A refund for
              an over draw of indirect costs in the amount of $22,305 was added and medical
              costs of $85.00 were subtracted. For FY 2004, a check in the amount of $341,736
              will be received by SSA no later than May 31, 2007. FY 2004 remained open
              after the audit period and is now ready to be closed. WV DRS paid additional
              costs and an over draw of indirect costs of $2,266 is also included. FY 2005
              remains open but will be closed out by June 30, 2007. As of March 31, 2007, the
              un-liquidated costs are $540,114. At June 30, 2007, we will have a firm number
              for un-liquidated obligations and will send a check for payment by July 15, 2007.
              See attachment for summary and reconciliation.




Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                       F-2
Recommendation #2

Review WV DDS’ FY 2006 draw downs and disbursements to determine whether WV DDS
continued to draw funds in excess of its expenditures.

Response:

              WV DRS has implemented new procedures for documentation and reconciliation
              of draws. The Fiscal Year 2006 ASAP Account Settlement Report shows that
              draws do not exceed disbursements as shown on the SSA-4513 report for the
              period through March 31, 2007.

Recommendation #3

Determine whether to request Treasury to change the WV DDS’ program status to make it
subject to interest for overdraws.

Response:

              The agreement between the Treasury and the WV DDS does allow for interest.
              Section 6.2.1 of the Treasury State Agreement between the State of West Virginia
              and the United States Department of the Treasury for Fiscal Year 2008 states:

              “The State shall request funds such that they are deposited in a State account not
              more than three days prior to the day the State makes a disbursement. The request
              shall be made in accordance with the appropriate Federal agency cut-off time
              specified in Exhibit I. The amount of the request shall be the amount the State
              expects to disburse. This funding technique is not interest neutral.”

              The WV DRS also established a separate fund for use by the WV DDS so as to
              eliminate the commingling of funds between the DDS and VR program.

Recommendation #4

Require the WV DDS to provide supporting documentation or withdraw funding authority
of $508,147, $339,639, and $655,575 for FYs 2003 through 2005, respectively, for the
unsupported obligations.

Response:

              The WV DDS has refunded SSA in the amount of $513,540 for FY 2003. The
              WV DDS has all supporting documentation for FYs 2003 through 2005. This
              information is available upon request. The DDS is in the process of establishing a
              method of consistent and timely reviews of unliquidated obligations and canceling
              those amounts that are no longer valid.



Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                       F-3
Recommendation #5

Require that WV DDS follow POMS instructions for financial reporting of unliquidated
obligations on the Form SSA-4513.

Response:

              The WV DDS has subsequently received POMS training for reporting obligations
              by SSA. The DDS is currently revamping their accounting and reporting
              procedures to comply with POMS procedures. These procedures include
              requiring the DDS personnel to keep accurate up-to-date records regarding
              information contained on the SSA-4513. These records will be reviewed
              quarterly by WV DRS personnel.

Recommendation #6

Instruct WV DDS to improve internal controls over its accounting and reporting
operations to ensure the accuracy of the Forms SSA-4513.

Response:

              The WV DDS has improved internal controls over its accounting and reporting
              operations. A separate account has been established with the West Virginia
              Treasury for the deposit of Disability Determination funds. WV DDS and WV
              DRS met with SSA on July 1, 2006 and at that time received additional
              instructions for documentation relating to the reporting of un-liquidated
              obligations. A new system of documenting draws has also been implemented.
              WV DDS and WV DRS continue to review and analyze procedures to ensure
              accurate reporting on the SSA-4513.

Recommendation #7

Instruct the WV DDS to comply with SSA’s policies related to access, environmental and
physical security controls.

Response:

              WV-DDS Did Not Adhere to SSA Policies for Access Control – Since the OIG
              audit, the DDS Assistant Security Officer reviewed the access card rights for all
              DDS and non-DDS personnel who have access to DDS workspace. Access to the
              Computer rooms was a primary focus of this review.

              Following the review, some cards were deactivated and access to the ADP rooms
              was removed from several cards. Currently non-DDS personnel with access to
              DDS workspace and the computer rooms include the security guards, the building
              manager, the assistant building manager, the onsite maintenance man, and the


Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                        F-4
              contractor which monitors the alarms and the sprinkling system in the building.
              No cleaning personnel have access to the computer rooms on either floor.

              At the time of the OIG audit, the print servers on the 5th floor of the DDS were not
              in a secure computer room because of space and temperature concerns. Since the
              audit, work to add additional air conditioners and to enlarge the ADP room has
              been completed. The servers are now in the secure area and access is restricted to
              individuals with access card permission. There is a deadbolt lock in one solid
              wood door to the room which meets SSA requirements. Only the AS 400 manager
              carries a key to the deadbolt.

              Although there are still individuals who are not DDS employees who have access
              to DDS workspace and to the computer rooms, access is restricted to those who
              must have access to the space to do necessary maintenance or to respond in
              emergency situations.


              WV-DDS Lacked Adequate Environmental Controls – The DDS requested
              guidance from the region regarding the need to install an alarm system in the
              computer room for environmental controls that addresses such issues as water,
              temperature, etc. The DDS does have separate air conditioners and temperature
              controls for both computer rooms that they routinely monitor.

              The region informed the DDS that the POMs requirement regarding the
              environmental controls does not apply to the iSeries computers used in the DDSs,
              as the DDSs are not “data centers”.


              WV-DDS Lacked Adequate Physical Security Controls – According to the
              POMS, the walls of the computer room should have slab-to-slab construction to
              prevent unauthorized entry or the computer room must be made secure by
              installing chain link fences, heavy wire mesh, or motion sensor devices in the
              space between the false ceiling and the true ceiling of the facility. To meet these
              requirements, the DDS is in the process of obtaining an estimate to install an
              intrusion detection system (IDS). Upon receipt of the estimate, the DDS will
              request SSA for funding approval.


              Access to the building and to the DDS during non-working hours is restricted to
              those with key cards which are programmed to allow entrance through front and
              rear doors of the building after normal work hours. The Charleston Federal Center
              is fitted with glass breakage (noise sensor) alarms on all perimeter windows on
              the first floor of the building. These double pane windows do not open. There are
              also alarms on all doors to the facility. This system is operative 24 hours per day.
              When an alarm is triggered during non-work hours, the building manager or
              assistant building manager and the Charleston Police Department are notified.

Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                          F-5
              The building is located downtown in a very visible area which is patrolled and is
              readily accessible by city police. During the time the DDS has been located in its
              current facility, there has been no break in or thefts or vandalism of DDS/SSA
              equipment. DDS management does not think that the lack of additional security
              measures above the ceiling of the computer room pose a significant security risk
              to the facility or to equipment. However, SSA has informed us that this is not a
              discretionary recommendation and therefore, we are pursuing estimates to install
              the IDS.




Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)                         F-6
                                                                        Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

   Lance Chilcoat, Audit Manager, General Management (410) 965-9743


Acknowledgments
In addition to those named above:

   Tracey Edwards, Senior Auditor

   Melinda Lockhart, Senior Auditor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number A-13-06-
16121.




Administrative Costs Claimed by the West Virginia DDS (A-13-06-16121)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
